<html>
<title> - TSA'S EFFORTS TO FIX ITS POOR CUSTOMER SERVICE REPUTATION AND BECOME LEANER, SMARTER AGENCY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                   TSA'S EFFORTS TO FIX ITS POOR CUSTOMER 
                    SERVICE REPUTATION AND BECOME LEANER, 
                    SMARTER AGENCY
=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 7, 2012

                               __________

                           Serial No. 112-97

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________



                  U.S. GOVERNMENT PRINTING OFFICE
79-504                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Ron Barber, Arizona
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                     Mike Rogers, Alabama, Chairman
Daniel E. Lungren, California        Sheila Jackson Lee, Texas
Tim Walberg, Michigan                Danny K. Davis, Illinois
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois, Vice Chair      Ron Barber, Arizona
Robert L. Turner, New York           Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                     Amanda Parikh, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
                 Vacant, Minority Subcommittee Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Chairman, Subcommittee on Transportation 
  Security.......................................................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Transportation Security........................................     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     4
The Honorable Joe Walsh, a Representative in Congress From the 
  State of Illinois:
  Prepared Statement.............................................     5

                                Witness

Mr. John S. Pistole, Administrator, Transportation Security 
  Administration:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8

                             For the Record

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Letter From Ranking Member Bennie G. Thompson and Hon. Nita M. 
    Lowey........................................................    16
  Letter From John S. Pistole....................................    17


TSA'S EFFORTS TO FIX ITS POOR CUSTOMER SERVICE REPUTATION AND BECOME A 
                         LEANER, SMARTER AGENCY

                              ----------                              


                         Thursday, June 7, 2012

             U.S. House of Representatives,
           Subcommittee on Transportation Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:04 a.m., in 
Room 311, Cannon House Office Building, Hon. Mike Rogers 
[Chairman of the subcommittee] presiding.
    Present: Representatives Rogers, Walberg, Walsh, Turner, 
Jackson Lee, Davis, Richmond, and Thompson.
    Mr. Rogers. This hearing of the Committee on Homeland 
Security Subcommittee on Transportation Security will come to 
order.
    This subcommittee is meeting today to examine TSA's efforts 
to fix its poor customer service reputation and become a 
leaner, smarter organization.
    I want to thank everyone for being at this hearing and I 
want to thank particularly Mr. Pistole, the administrator, for 
being here. Sir, you have got a tough job and we appreciate 
your service.
    I think we can agree that every person in this great 
country of ours has the right to criticize and complain about 
TSA. But what sets you and I apart from those that just want to 
criticize the TSA is that we have the obligation to fix the 
mess.
    I know for a fact how dedicated you are to your security, 
to our security, and your distinguished service to our Nation. 
But the fact is, over the last 2 years, progress at TSA has 
come at a snail's pace and in some ways has gone backwards.
    It is not enough that the agency is becoming more risk-
based. The American people need to see immediate changes that 
impact them. For example, while the PreCheck program has gotten 
off to a successful start, we are talking about something that 
does not benefit most of the average travelers.
    So let us start talking about what we can do to fix the 
broken and outdated policies that do affect most people.
    On Monday, Congressman Walsh and I visited Chicago O'Hare 
Airport. We met with travelers afterwards to discuss their 
thoughts on TSA. The overwhelming majority of those that 
attended the meeting expressed frustration that 10 years after 
9/11, the TSA is still collecting pocketknives; it is still 
collecting water bottles; it is still collecting pill cutters 
with razor blades; and, of course, the travelers are subjected 
to invasive searches and loss of privacy.
    The fact is, these folks are right and reasonably are fed 
up. Mr. Pistole, in my view, the prohibited items list is the 
place for you to start taking immediate action to make changes.
    Before 9/11, travelers were trained to cooperate with 
hijackers in those days. History has proven that if you 
cooperated, the plane would land safely and they would get 
their money or their prisoners out of jail.
    We all know 9/11 changed that mentality. As we adapt and 
evolve to meet the threats of post-9/11 world, so do the 
terrorists who continue to evolve in their tactics.
    The problem is that TSA is too far behind the curve to see 
what is coming next. The truth is, Mr. Pistole, I believe you 
are too bogged down in managing an oversized workforce to 
mitigate the next potential threat.
    That is a chilling reality and despite our efforts here, 
your technology procurement process is still a mess.
    In the case of the TSA's new credential authentication 
technology, all signs point to what I believe is another 
wasteful investment. This subcommittee will hold a separate 
hearing on that technology in 2 weeks. We need to make sure our 
transportation system is as secure as possible at the lowest 
cost possible and with the least intrusion to the American 
taxpayer.
    With that, I now recognize the Ranking Member of the 
subcommittee, the gentlelady from Texas, Ms. Jackson Lee for 5 
minutes for her opening statement.
    Ms. Jackson Lee. Mr. Chairman, thank you very much and to 
the Members who are present and to the Ranking Member and the 
full committee Chairperson of the full committee, Mr. Pistole, 
good morning.
    I thank the Chairman for this opportunity and I welcome 
Administrator Pistole and acknowledge that this month marks 
your 2-year anniversary at TSA. Might I also congratulate you 
on a great event that you just recently had with your family 
and wish them well.
    I thank you for your leadership and I look forward to 
continuing to work with you and I also, Mr. Chairman, would 
like to thank you for holding what I hope will be an 
informative hearing.
    Let me acknowledge as we all do in this business that I 
have before the Judiciary Committee the attorney general, and 
so I will be looking to be in this hearing for as long as I can 
and if Mr. Pistole would accept the fact that I may be not in 
two places at once but have to be in two places for the 
responsibilities that I have.
    But it is important for us to recognize the leadership of 
Mr. Pistole and identify opportunities where TSA can do better. 
I consider this committee one of the hard-working committees, I 
would like to say hardest-working, and as well that there is a 
collegiality between myself and the Chairperson, we look 
forward to working together on a number of issues.
    I take issue, however, with the title of today's hearing 
because I do believe that the 40,000-plus numbers of TSO 
officers are in fact the majority committed to the service of 
this Nation.
    As I have traveled throughout the Nation's airports, both 
small, medium, and large, and encountered a number of TSOs and 
spoken to them about their commitment or how long they have 
been. A large number, of course, rose to the occasion after 9/
11 as this agency was being created. Many of them are former 
law enforcement officers. Others are former members of the 
United States military who just could not sit home while their 
Nation was in crisis.
    That commitment is still present and I believe what is most 
important is that we instill that commitment and dedication to 
service to all of the new recruits.
    I would ask this committee, would we consider missteps in 
the United States military as a cause for privatization or 
suggesting that there are too many persons and that we should 
indicate it is too cumbersome and difficult?--when we think of 
the vast numbers of men and women of the United States military 
in places far away.
    For the most part, the Members of Congress recognize that 
it is important for them to be present where they are.
    So I hope that we can view the Transportation Security 
Agency as our agency. I have said repeatedly we need increased 
professional development, we need the opportunity for promotion 
and I think, Mr. Pistole, you have agreed with me on that.
    We certainly need to weed out those who are not adhering to 
the duties that they are mandated to do. When we find fractures 
in the system, we need to be able to own up to it, stand up to 
it and get rid of it. I hope that is what you are committed to 
doing.
    But our transportation security system is not a call center 
or a help desk in a department store. I think we would be 
remiss if we did not recognize TSA's growth and maturity since 
being established in the aftermath of 9/11. Let us ask 
ourselves with the elimination of TSA as proposed by many of my 
friends on the other side of the aisle, such as the 
Appropriations Committee--work would make us more secure.
    I remind everyone constantly, 9/11 was pre-TSA. I am 
thankful that we believe, most of us, that we can move forward 
and improve this organization. We cannot ignore that TSA 
expands beyond our checkpoint screening operations and has 
successfully instituted security programs such as Secure 
Flight, which vets passengers against a no-fly list before 
boarding a plane.
    But there needs to be greater cooperation. No doubt there 
needs to be cooperation with airlines and airports. We need to 
be looking at the ingress and egress of airports where 
individuals can bypass TSA because of so many entrances and 
become a security threat. TSA does not walk the airports, per 
se. They are at the screening sites.
    Risk-based screening, a shift on the passenger screening 
experience as TSA evolves and focuses more time on those 
individuals it knows the least about, that is important and the 
use of intelligence.
    The Transportation Security Grant program, which requires 
TSA's expertise on mass transit vulnerabilities and funding 
priorities across all high-risk State and local jurisdictions--
in my own community of Houston, this partnership has been 
vital.
    These are just examples of how TSA has established itself 
beyond just our checkpoint screening. The National goal of 
ensuring a safe aviation environment can only be achieved 
through bipartisanship in the Legislative branch and 
cooperation between the Legislative branch and the Executive 
branch.
    As I conclude, I want to look forward to securing from this 
hearing today, Mr. Administrator, clarifying some of the points 
discussed earlier this year by TSA officials: The vetting of 
workers at airports; privatization of Transportation Security 
Workers; weeding out the bad apples, such as incidents that 
occurred in the last 2 weeks; the status of TSA's repair 
station security role; and the role and responsibilities for 
surface inspectors at TSA, and whether or not we are working 
with the industry to secure such.
    Mr. Chairman, I look forward to this hearing and I am 
hoping that we will have the opportunity to leave this place 
with a roadmap--a continued roadmap--for the professional 
service of TSA officers and TSA that are in the front lines, 
along with Federal air marshals, in the front lines of securing 
the Nation's future.
    Mr. Chairman, I thank you for your indulgence and I yield 
back.
    Mr. Rogers. I thank the gentlelady.
    The Chair now recognizes the Ranking Member of the full 
committee, Mr. Thompson from Mississippi.
    Mr. Thompson. Thank you very much, Mr. Chairman. I welcome 
Mr. Pistole to our committee and look forward to his testimony.
    Mr. Pistole, let me start by commending you for your 
decision over a year ago to grant collective bargaining rights 
to Transportation Security Officers at TSA. As proven by the 
performance of other Federal security officers, collective 
bargaining does not diminish our security. Collective 
bargaining can improve workforce morale and productivity and 
this will positively impact TSA's ability to fulfill its 
mission to secure our transportation systems.
    It is important for all of us not to forget that TSOs are 
the front-line defense in aviation security. Therefore, we must 
ensure that these workers are not only properly trained, but 
are afforded appropriate workplace protections. TSA has come a 
long way since it was established in 2001. Efforts to improve 
TSO's morale would lead to increased capacity and 
professionalism in their ranks and in security.
    As you know, Administrator Pistole, I have called on you to 
reach an agreement on a contract and renew that call to you 
today. I would also like to take this opportunity to note the 
administrator's progress on efforts made to improve screening 
at checkpoint procedures, even though we have yet to pass an 
authorization bill for TSA in the House during the 112th 
Congress.
    Although TSA faces many operational challenges, it also has 
made progress on initiatives that are aimed at supporting its 
mission. However, as the authorizing committee for TSA, it is 
our duty to produce legislation that ensures proper funding 
levels and set forth critical programs in Federal law.
    Finally, I would like to point out that TSA has not 
provided Congress a plan for TWIC renewals. As you know, there 
are some 2.1 million people in this country with TWIC cards and 
those renewals for those individuals are coming up over the 
next year or so will be very crucial. We marked up a bill that 
addressed this in the full committee yesterday.
    I would encourage you to move forward with a plan that 
extends the deadline for renewals until DHS has held up its end 
of the bargain on deploying readers for the cards. I again say, 
Mr. Chairman, it was Congress' intent that when the TWIC 
program was approved that the readers were just a matter of 
course. But we are some years later and we are not there. So 
clearly, we have a problem, and I would not want that problem 
become a burden of the employees who have had to pay $132.50 to 
get their TWIC card, which at this point is nothing more than a 
glorified flashcard.
    With that, Mr. Chairman, I yield back.
    Mr. Rogers. I thank the gentleman.
    The other Members of the committee are reminded that 
opening statements may be submitted for the record.
    [The statement of Hon. Walsh follows:]
                      Statement of Hon. Joe Walsh
                              June 7, 2012
    Thank you Mr. Chairman for holding this hearing today. I also want 
to thank the Transportation Security Administration (TSA) Administrator 
John Pistole for testifying.
    I recently held a town hall in my district, the 8th of Illinois, 
with Subcommittee Chairman Mike Rogers (AL-03). We heard from numerous 
constituents on their opinions of TSA, the majority of which were what 
I would categorize as ``highly unfavorable.'' I recognize that many 
people who attend these types of events do not do so to praise the 
Government; they come to complain. However, if I did not believe there 
were enough people with something to complain about in my district, I 
would not have held this event and invited Chairman Rogers there. What 
I heard was not surprising: Overwhelmingly, my constituents complained 
of inconsistencies, bad attitudes, and other inappropriate behavior by 
Federal transportation screening officers (TSOs), and the list 
continues. According to my constituents, TSA and its officers are not 
protecting us nearly as much as they are harassing or inconveniencing 
us.
    What I have surmised from this event and my own experiences flying 
in and out of O'Hare National Airport almost every week is that TSOs 
are not doing their work as well as they should, and Americans know it. 
What bothers me most, however, is that TSA seems to be doing nothing to 
improve either the work of TSOs or the administration's tarnished 
image.
    When I was elected to Congress, I took an oath to faithfully 
discharge the duties of office. One of those duties is to ensure 
Federal agencies are spending the taxpayer dollar wisely. If TSA cannot 
find a way to do their job to the better satisfaction of the Americans 
that pay their salaries, I will be leading the charge to find ways to 
meet our Nation's security needs.
    Again, thank you for testifying before us today, and I look forward 
to your response.
    Thank you again Mr. Chairman for what you did in the 8th 
Congressional District of Illinois and for holding this hearing today.

    Mr. Rogers. Again, we are pleased today to have a 
distinguished witness before us, Administrator Pistole. John 
Pistole has been the administrator of the Transportation 
Security Administration at the Department of Homeland Security 
since 2010. As TSA administrator he oversees the management of 
approximately 60,000 employees, the security operations of more 
than 450 Federalized airports throughout the United States, the 
Federal Air Marshal Service, and the security for highways, 
railroads, ports, mass transit, and systems and pipelines. No 
small job.
    The Chairman now is happy to recognize Administrator 
Pistole for his opening statement for 5 minutes.

  STATEMENT OF JOHN S. PISTOLE, ADMINISTRATOR, TRANSPORTATION 
                    SECURITY ADMINISTRATION

    Mr. Pistole. Thank you, Chairman Rogers, Ranking Member 
Thompson, and distinguished Members of the committee. I 
appreciate the opportunity to appear before you today.
    As we know, TSA's goal is to maximize transportation 
security and stay ahead of evolving threats, while protecting 
privacy and facilitating the flow of legitimate trade and 
commerce.
    Chairman Rogers, I would respectfully disagree with your 
assessments for reasons that I will outline. I think we have 
made significant progress over the last 2 years, but let me 
start with the context that this hearing is taking place in.
    So this is my first hearing since the disruption last month 
of the terrorist plot--the latest plot--against the United 
States, which ended up being an intelligence coup for not only 
U.S. Government, but foreign security intelligence services. 
But--and critical here--it shows the determination of 
terrorists to use unique designs, constructs, and concealment 
of non-metallic devices, either on a person as a suicide 
bomber, or in cargoes we have seen, to blow up a U.S.-bound 
airliner.
    This incident highlights the challenges that the men and 
women of TSA face every day, to keep safe the 1.7 million or so 
travelers who fly within the United States and from the United 
States from the 450 airports while we strive to provide the 
most effective security in the most efficient way.
    We are taking a number of steps to achieve those goals. 
That is why we are continuing to move away from the one-size-
fits-all construct that was stood up after 9/11, using 
intelligence, technology, and training to accomplish this 
critical mission.
    Now, are each of the over 600 million people that we screen 
each year, or over the 6 billion people that we have screened 
since our rollout in May 2002, completely satisfied with the 
manner in which we accomplish our mission? No, obviously not; 
but the vast majority are.
    We have learned where and how we can modify procedures 
without compromising security. That is why we are transforming 
who TSA is, and how we accomplish our mission through these 
risk-based security initiatives, including modified, less 
intrusive physical screening of World War II veterans on honor 
flights, children 12 and under, from last fall, and now 
passengers 75 and older just in the last month.
    TSA pre-checks the Trusted Traveler Program, which was 
mentioned, with nearly 1.5 million people, pre-screened 
passengers, thus far, including a number of Members of 
Congress, going quickly through modified checkpoint screening, 
because we know more about you, about them, based on their 
voluntary sharing of information with airlines or with global 
entry--pilots, who are of course the most trusted persons on 
the aircraft; and in the future flight attendants, members of 
the armed forces who fight for our freedoms, members of the 
intelligence community.
    Now, we are exploring how we can expand this group of 
trusted travelers to include many others based on the risk-
based, intel-driven premise that the vast majority of travelers 
are not terrorists and simply want to get from point A to point 
B safely.
    So how are we accomplishing this transformation? In 
addition to seeking innovations in technology and expanding our 
canine program, we are focusing on our most valuable resource, 
our people.
    Last fall I announced two important changes at our 
headquarters to promote excellence in the workplace to 
complement the new Office of Professional Responsibility, which 
I set up when I came over from the FBI 2 years ago.
    These changes are designed to inculcate the three 
expectations I have of every TSA employee: Hard work, 
professionalism, and integrity; and, to ensure accountability 
when we don't meet those expectations.
    So first, we created the Office of Training and Workforce 
Engagement to centralize leadership and technical training 
programs. Second, we expanded our ombudsman and travel 
engagement offices and efforts to focus on our proactive 
outreach with the traveling public.
    So at TSA we employed a workforce as diverse as the 
traveling public we serve. Approximately 23 percent of our 
employees have served our Nation honorably in uniform through 
prior military experience. Attrition was 7.2 percent in fiscal 
year 2011, contrary to some of these reports that we hear out 
there. This is a reduction of over two-thirds over the last 5 
years.
    Recognizing communications as integral to TSA's success, we 
are providing opportunities to build these skills. We are 
providing a tactical communications, or TACCOM, course to every 
officer, supervisor, and manager by the end of this year with 
over 30,000 officers already trained. Some key concepts and 
strategies of TACCOM include active listening, including 
empathy, using voice to communicate clearly, and avoiding the 
tendency to trade negative comment for negative comment.
    Training officials have received strong positive feedback 
from many officers who apply this training to their jobs. 
Complementing this training, additional training on the 
continuing education opportunities available to our workforce 
at community colleges close to where they work, including 
schools in Alabama, Texas, Mississippi, and other States. Since 
our associates program became fully operational in 2010, 
approximately 2,800 TSA personnel have enrolled.
    In April we started specialized classes at the Federal Law 
Enforcement Training Center in Glynco, Georgia, designed to 
incorporate both leadership and technical skills and 
expectations for supervisory security officers.
    We have also established a disability multicultural 
division within TSA, which is responsible for engaging members 
of these communities in a proactive fashion.
    Then last December, of course, we launched TSA Cares to 
assist travelers with disabilities and medical conditions prior 
to getting to the airport.
    So in closing, as we strive to foster excellence in the TSA 
workforce and improve the overall travel experience for all 
Americans through risk-based security initiatives, we continue 
to carry out our core mission of providing the most effective 
security in the most efficient way.
    Thank you, Chairman, for the opportunity to appear before 
you today.
    [The statement of Mr. Pistole follows:]
                 Prepared Statement of John S. Pistole
                              June 7, 2012
    Good morning Chairman Rogers, Ranking Member Jackson Lee, and 
distinguished Members of the subcommittee. Thank you for the 
opportunity to testify today about the Transportation Security 
Administration's (TSA) on-going efforts to foster continued excellence 
in the TSA workforce and to make air passengers' experience at the 
checkpoint more efficient without compromising security.
    The TSA workforce remains vigilant in carrying out TSA's mission 
every day. To do so, TSA employs risk-based, intelligence-driven 
measures to deter and prevent terrorist attacks and to reduce 
vulnerabilities in the Nation's transportation systems. These measures 
create a multi-layered system of transportation security to mitigate 
risk. We continue to evolve our security approach based on intelligence 
by examining the procedures and technologies we use, how specific 
security procedures are carried out, and how screening is conducted.
    The TSA workforce operates on the front-line in executing the 
agency's transportation security responsibilities in support of the 
Nation's counterterrorism efforts. These responsibilities include 
security screening of passengers and baggage at over 450 airports in 
the United States that facilitate air travel for 1.8 million people per 
day; vetting more than 14 million passenger reservations and over 13 
million transportation workers against the terrorist watch list each 
week; and conducting security regulation compliance inspections and 
enforcement activities at airports, for domestic and foreign air 
carriers, and for air cargo screening operations throughout the United 
States and at last point of departure locations internationally.
    The transformation of TSA headquarters functions, which I announced 
last fall, included two important components to promote excellence 
within the TSA workforce and to address the needs of the traveling 
public. A new Office of Training and Workforce Engagement (TWE) was 
created to centralize technical, leadership, and workforce programs 
that were previously dispersed throughout the agency and to promote 
processes that engage our employees and empower them to execute TSA's 
mission. The Office of Special Counselor was expanded to the Office of 
Civil Rights and Liberties, Ombudsman and Traveler Engagement (CRL/OTE) 
to ensure that employees and the traveling public are treated in a 
respectful and lawful manner, consistent with Federal laws and 
regulations protecting privacy and civil liberties, affording redress, 
governing freedom of information, and prohibiting discrimination and 
reprisal while promoting diversity and inclusion.
                   maintaining a first-rate workforce
    Before discussing the initiatives being introduced by the new TWE 
and CRL/OTE program offices, I want to stress that excellence in the 
workplace begins with a dedicated and professional workforce. While 
technology and instruction manuals support our efforts, it is our 
people that protect travelers. Public service requires public trust and 
demands adherence to the highest ethical and personal conduct 
standards. As public servants charged with protecting the Nation's 
vital transportation systems, we owe the traveling public nothing less. 
All aspects of our workforce regimen--hiring, promotion, retention, 
training, proactive compliance inspections, investigations and 
adjudications--are driven by adherence to the highest ethical 
standards.
    TSA employs a diverse workforce that reflects the traveling public 
we serve. In addition, approximately 23 percent of our employees have 
served our Nation honorably in uniform through prior military service 
and our commitment to recruiting and hiring veterans continues, as TSA 
works with key stakeholders towards that end. We are also proud of the 
dedication our workforce has to the mission. The agency's Voluntary 
Attrition Rate, including full-time and part-time employees, was 7.2 
percent in fiscal year 2011. This rate is a significant decrease from 
18 percent in fiscal year 2004. As TSA marks its 10th anniversary, we 
are also pleased to report the average length of service for the 
Transportation Security Officer (TSO) workforce is approximately 6 
years.
          training initiatives improve workforce capabilities
    A dedicated TSA workforce assures the traveling public that they 
are protected by a multi-layered system of transportation security that 
mitigates risk. An effective workforce must be properly trained and 
good management is a key ingredient in preserving a motivated and 
skilled workforce. TSA's new training office has implemented several 
new initiatives to accomplish this objective.
    Leaders at Every Level.--TSA has implemented the Leaders at Every 
Level (LEL) initiative, a structured process designed to identify 
exceptional leaders at every level of TSA, from TSOs to Federal 
Security Directors at the airports as well as Headquarters managers. 
The goal is to identify traits of these exceptional leaders that can be 
modeled for all leaders and employees through example and training.
    Since its inception last year, LEL has used a rigorous process to 
identify 284 exceptional leaders across all levels of TSA to act as a 
resource for Senior Leadership to inform their initiatives and 
decisions. Specifically, we have created a 1-year detail position 
within the Office of Human Capital for an LEL selectee to provide field 
insights and experience; two LEL selectees were tapped to serve as 
Subject Matter Experts in informing the new supervisor's training 
course; and all exceptional leaders were asked to provide leadership 
stories that will be shared agency-wide to model desired leadership 
characteristics for the next generation of agency leaders. Moving 
forward, we intend to provide further opportunities for Senior 
Leadership to tap into the LELs' unique insights and empower LELs to 
directly reach out and support their colleagues throughout TSA.
    In addition, TSA has implemented a new four-tier performance 
management program for non-TSOs. This effort enables the workforce to 
actively engage in developing their annual performance goals in 
collaboration with their supervisors while promoting two-way 
communication between employees and their supervisors throughout the 
performance year. This program ultimately provides a mechanism to 
proactively identify opportunities to improve employee performance.
    Communications Skills Development Course.--Communications is 
paramount to TSA's success, and the agency is providing its officers 
with training opportunities to improve their communications skills with 
the travelling public. A course titled ``TACCOM''--an acronym for 
Tactical Communications--is an interactive communications skills 
development course that will be delivered to every officer, supervisor 
and manager by the end of this year.
    TSA's headquarters training officials have received many 
unsolicited testimonials from those who have completed the TACCOM 
course, highlighting how the principles, tools, and techniques covered 
during this course have not only helped employees on the job, but also 
in their personal life. To date, almost 60 percent of the nearly 50,000 
employees who will be required to participate in this 1-day 8-hour 
instructor-facilitated training course have completed it, and the 
feedback continues to be very positive.
    Emphasis Upon Supervision.--In July 2012, TSA will also launch a 
new course titled ``Essentials of Supervising Screening Operations 
(ESSO)'' for Supervisory Transportation Security Officers (STSOs) only. 
The ESSO course is designed to incorporate both technical and 
leadership expectations and operational responsibilities for STSOs. 
This course will help STSOs understand their individual leadership 
strengths and weaknesses and identify the most effective ways to 
communicate with each person they come in contact with. STSOs will also 
have an opportunity to strengthen their customer service skills by 
understanding the need to model appropriate interactions with their 
team, the traveling public, and stakeholders.
    The learning objective for the customer service module, as well as 
the ESSO course overall, is to demonstrate how important it is for 
STSOs to lead by example, and how to provide effective feedback to 
their team members.
                  crl/ote promotes policy of inclusion
    As mentioned previously, TSA's new CRL/OTE office is responsible 
for ensuring that TSA employees and the traveling public are treated in 
a fair and lawful manner, consistent with Federal laws and regulations 
protecting privacy and civil liberties, affording redress, governing 
freedom of information and prohibiting discrimination and reprisal, 
while promoting diversity and inclusion.
    As a result of the transformation, the role of the ombudsman has 
been heightened to now report directly to the administrator. While the 
ombudsman is primarily focused on providing neutral, informal, and 
confidential problem resolution services to employees for issues, 
concerns, and conflicts involving TSA policies or personnel, the 
ombudsman is also available to address passenger concerns.
    We also established a new Disability and Multicultural Division 
within CRL/OTE by merging our disability and multicultural programs 
that were in two different offices. This new division is responsible 
for ensuring, in collaboration with the DHS Office for Civil Rights and 
Civil Liberties (CRCL), that TSA security screening policies, 
procedures, and practices comply with all applicable laws, regulations, 
Executive Orders, and policies and do not discriminate against 
travelers on the basis of disability, race, ethnicity, national origin, 
religion, or gender. It is also responsible for developing, managing, 
and strengthening partnerships and outreach with community leaders from 
disability- and multicultural-related interest groups, DHS Components, 
the DOD Wounded Warrior Program, and the CRCL. CRL/OTE provides advice 
on the impact or potential impact of new and existing screening 
procedures on members of the disability and multicultural communities, 
and collaborates with CRCL and the appropriate TSA offices to mitigate 
these impacts.
    ``TSA Cares''.--TSA strives to provide the highest level of 
security while ensuring that all passengers are treated with dignity 
and respect. The agency works regularly with a broad coalition of 
disability and medical condition advocacy groups to help understand 
their needs and adapt screening procedures accordingly. All travelers 
may ask to speak to a TSA supervisor if questions about screening 
procedures arise while at the security checkpoint.
    Last December, TSA launched ``TSA Cares,'' a new helpline number 
designed to assist travelers with disabilities and medical conditions 
prior to getting to the airport. Travelers may call the TSA Cares toll-
free number with questions about screening policies and procedures as 
well as what to expect at the security checkpoint. When a passenger 
with a disability or medical condition calls TSA Cares, a 
representative will provide assistance either with information about 
screening that is relevant to the passenger's specific disability or 
medical condition or the passenger may be referred to disability 
experts at TSA. This additional level of personal communication helps 
ensure that even those who do not travel often are aware of our 
screening policies before they arrive at the airport.
    Since its inception, TSA has provided information to all travelers 
through its TSA Contact Center (TCC) and Customer Service Managers in 
airports Nation-wide. TSA Cares will serve as an additional, dedicated 
resource for passengers with disabilities, medical conditions or other 
circumstances, or their loved ones who want to prepare for the 
screening process prior to flying.
    Expanded TCC Hours.--In an effort to further enhance our support 
for travelers, we recently expanded the hours of the TCC. The TCC can 
provide information in response to questions, concerns, or complaints 
regarding security procedures; reports and claims of lost, stolen, or 
damaged items; and programs and policies. TCC operators are trained to 
address passengers' questions about screening in order to resolve 
passengers' concerns. The expanded hours are now Monday--Friday, 8 
a.m.-11 p.m. Eastern Standard Time (EST); and weekends and Federal 
holidays, 9 a.m.-8 p.m. EST. In fiscal year 2011, the traveling public 
contacted the TCC more than 750,000 times.
                rbs and tsa precheck continue to expand
    As you know, last Fall TSA began developing a strategy for enhanced 
use of intelligence and other information to enhance a risk-based 
security (RBS) approach in all facets of transportation, including 
passenger screening, air cargo, and surface transportation. At its 
core, the concept of RBS demonstrates a progression of the work TSA has 
been doing throughout its first decade of service to the traveling 
public. Our objective is to mitigate risk in a way that effectively 
balances security measures with privacy, civil rights, and civil 
liberties concerns while both promoting the safe movement of people and 
commerce and guarding against a deliberate attack against our 
transportation systems.
    RBS in the passenger screening context allows our dedicated TSOs to 
focus more attention on those travelers we believe are more likely to 
pose a risk to our transportation network while providing expedited 
screening to those we consider pose less risk. Through various RBS 
initiatives, TSA is moving away from a one-size-fits-all security model 
and closer to its goal of providing the most effective transportation 
security in the most efficient way possible.
    The most widely known risk-based security enhancement we are 
putting in place is TSA PreCheck<SUP>TM</SUP>. Since first implementing 
this idea last fall, the program has been expanded to 15 airports, 
making it possible for eligible passengers flying from these airports 
to experience expedited security screening through TSA 
PreCheck<SUP>TM</SUP>. The feedback we've been getting is consistently 
positive. TSA pre-screens TSA PreCheck<SUP>TM</SUP> passengers each 
time they fly through participating airports. If the indicator embedded 
in their boarding pass reflects eligibility for expedited screening, 
the passenger is able to use the PreCheck<SUP>TM</SUP> lane. Currently, 
U.S. citizens flying domestically who are qualified frequent fliers of 
American Airlines, Delta Air Lines, and Alaska Airlines, or members of 
U.S. Customs and Border Protection's (CBP) trusted traveler programs, 
such as Global Entry, may be eligible for expedited screening at select 
checkpoints. TSA is actively working with other major air carriers such 
as United Airlines, US Airways, and Jet Blue to expand both the number 
of participating airlines and the number of airports where expedited 
screening through TSA PreCheck<SUP>TM</SUP> is provided. By the end of 
2012, TSA plans to have TSA PreCheck<SUP>TM</SUP> operating at many of 
the Nation's busiest airports.
    TSA PreCheck<SUP>TM</SUP> travelers are able to divest fewer items, 
which may include leaving on their shoes, jacket, and light outerwear, 
and may enjoy other modifications to the standard screening process. As 
always, TSA will continue to incorporate random and unpredictable 
security measures throughout the security process. At no point are TSA 
PreCheck<SUP>TM</SUP> travelers guaranteed expedited screening.
                               conclusion
    As we strive to foster excellence in the TSA workforce and continue 
to seek ways of improving the overall travel experience for the 
traveling public through risk-based security initiatives, we must 
always remember that our success is defined, in large part, by the 
professionalism and dedication to duty of our people. Whether it is for 
business or for pleasure, the freedom to travel from place to place is 
fundamental to our way of life, and to do so securely is a goal to 
which everyone at TSA is fully committed. Thank you for the opportunity 
to appear before you today. I am pleased to address any questions you 
may have.

    Mr. Rogers. Thank you, Mr. Administrator.
    As we go into the questions period I want to remind the 
Members we will take as many rounds of questions as you want to 
have, but I want to adhere to the 5-minute rule. I will enforce 
it on myself and everybody else. I just want you to know we 
will nudge you to ask questions as many times as you want to 
ask, but we are going to stay to the 5-minute rule.
    I will start with my questions first. Mr. Pistole, you 
know, I see in my town hall meetings, and again, I mentioned a 
few minutes ago, I was in Chicago O'Hare this Monday. I am just 
telling you, it is palpable. The American people are just 
really disgusted and outraged with the department that they see 
is bloated and inefficient.
    You and I talk on a regular basis. You know I have shared 
with you privately that the department has got a bad image 
problem. My question to you is why can't it move more quickly 
to remedy these? You gave a laundry list of things there that 
are initiatives that are in place. But it is moving at a 
snail's pace. Why?
    Mr. Pistole. Well, thank you, Chairman, for recognizing 
that we are making progress, just not at the pace that the 
American people would like to see.
    Mr. Rogers. Not just like to see. It is unacceptable.
    Mr. Pistole. Well, I disagree with that, Mr. Chairman, 
respectfully from the standpoint of, if we put something in 
place too quickly, as we have been so criticized over the years 
for, say, rolling out technology before we got it right, or new 
protocols before we got it right.
    If it implicates security in a negative way, then that is 
the worst outcome, because if terrorists can exploit a 
vulnerability because of something that we rushed to get out, 
then that doesn't serve any of us.
    Well, the bottom line is we have to provide the best 
possible security. The question is how can we do that in the 
most professional way, the most efficient way? That is why I 
appreciate working with the committee to say these risk-based 
security initiatives that we are taking are making a 
difference.
    I think if you ask any of the 1.5 million people who have 
been through PreCheck, including, again, a number of folks here 
in the room, I think they would say it is a very positive 
experience. It is a step in the right direction, and we are 
working aggressively to try to expand that population base.
    Mr. Rogers. Again, I acknowledge the list of programs that 
it has recently started are good. But they should have been 
started earlier. They need to be moved along, a much more rapid 
pace.
    You have also had me talk with you privately about how 
strongly I feel that the department is bloated with personnel. 
I am of the opinion it could reduce its ranks by 30 percent to 
40 percent, and still be able to do the job just as effectively 
if you had control over who the remaining 60 percent or 70 
percent of the people were.
    I also believe that if we had that leaner, smaller 
workforce, the public would have greater confidence, because 
the public is upset when they go in the airport and see all 
these people standing around doing nothing. Then the ones they 
do interact with seem unprofessional.
    I feel like that if we had a smaller workforce, it would be 
easier for you to get them professionally trained, because it 
would be a smaller group of people. The savings, you realize, 
from making those reductions, would pay for the training.
    You just mentioned that you would like to see a more 
professional and efficient workforce. We all would. My question 
to you is: Do you agree that we could reduce the workforce by 
30 percent, and still be able to do the job if you got to pick 
the people?
    Mr. Pistole. Well, that is a very challenging proposition 
from a number of standpoints. So the fact is, after the 
Congress, in the enabling legislation said, ``Go out and stand 
up this workforce in a year's time,'' so TSA went out and hired 
50,000 people in a year's time, and had them out at the 
checkpoints working within that year's time--huge undertaking.
    Mr. Rogers. I agree.
    Mr. Pistole. So the challenge now is then, how do we move 
forward in the second decade of TSA to address those concerns 
that you have raised? I would note that most people who would 
come to a town hall on something like that are probably not 
there to compliment something. Most people who want to show up 
for something want to offer constructive criticism or 
otherwise.
    Mr. Rogers. I hear it everywhere. I mean, family get-
togethers, church. I mean, people--as soon as you mention 
``TSA,'' a light bulb goes off, and people start venting their 
anger. You know, I have talked with you about--it is not only a 
problem with the American people being upset. You have got an 
image problem in the Congress.
    Half the Congress wants to just get rid of the department, 
because they think it is useless. You and I know it is not the 
case. I mean, you have done some very good things, some very 
effective programs.
    The truth is we have to have airport screening. We have to 
have our port security at our sea ports, our trucking systems, 
our pipelines. But until we get the department to where the 
American people have confidence in it, you got a big problem.
    Mr. Pistole. I agree, Chairman. I appreciate the concern. I 
believe that these initiatives that we have undertaken that are 
involving more and more people, and as we try to expand it to 
the less-frequent travelers, those everyday travelers, we have 
seen record enrollment in global entry, that anybody can sign 
up for, $100 for 5 years. They are eligible at 15 airports now 
to go through----
    Mr. Rogers. Those are good programs. I want to get back to 
my question. My time is almost up. Do you agree that you could 
dramatically reduce your workforce now that it is not the first 
year--you had a decade--that you could dramatically reduce the 
46,000 personnel that you have got as screeners, and still do 
the job just as effectively, if not more professionally and 
effectively?
    Mr. Pistole. No, I don't agree with that. That is a huge 
number. That would take a significant assessment on the one 
hand. If the question is how would that in practicality--so it 
is good to talk about theoretically, and say, ``Yes, it could 
do that.''
    Mr. Rogers. My time is expired. I recognize the Ranking 
Member for any questions she may have.
    Ms. Jackson Lee. I thank the Chairman very much.
    I want to make the Chairman happy, Mr. Pistole. The thing 
that I have said to you over and over again--and as you well 
know, I speak quickly and I am going to be pointed in my 
questions. I just want you to say, ``Yes.''
    You have got to tell TSA's story. I have said that over and 
over again. We have got to stop being shy, and add to the list 
of horror stories--which, they do exist as you well know--some 
of the great examples of actions by TSA agents, TSOs at the 
gate helping passengers, being sensitive to the elderly. The 
story has to be told.
    Can I just ask a simple question? Do you see that as 
valuable to do, and will you be looking forward to try, and 
doing more of that--when I say ``you''--your team?
    Mr. Pistole. Yes.
    Ms. Jackson Lee. All right. Let me move forward. As you 
know, the Appropriations Committee has provided out of your 
dollars, $15 million above the President's request for 
privatized screening operations.
    You have testified that operating a dual public-private 
model cost taxpayers more than if the entire system is 
Federalized. Do you recommend that $15 million at issue, and 
could it be directed to enhance other security operations?
    Mr. Pistole. Well, there are a number of answers to that, 
Ranking Member. As you know, the bottom line is, if there was 
additional money available for other security programs, whether 
in surface or whatever it may be, that would obviously be 
helpful. But the whole issue of the privatized airports, we are 
working through those issues now in terms of applications. The 
bottom line is----
    Ms. Jackson Lee. Did you say that that dual system would 
cost the taxpayers more?
    Mr. Pistole. It does currently, yes.
    Ms. Jackson Lee. All right. Thank you, Mr. Pistole. The 
issue of surface inspectors, the question of the program, 
surface inspector program, we had testimony here last week that 
we can do a better job. But if the surface inspector program 
were to be cut today by $20 million, how would that hinder the 
mission of the program?
    Mr. Pistole. Well, two of the key accomplishments in areas 
that have provided tangible security results from the surface 
transportation inspectors has been the reduction in the toxic 
inhalation hazard, from freight rail, including within a mile 
of where we are sitting right now, that over the last several 
years, because of TSA working with industry, have been able to 
reduce those toxic hazards in the freight cars. Again, just 
close by here. That is one area.
    Another area is the base assessment that we have worked 
with metropolitan transit authorities to enhance their security 
in a more efficient way by focusing on the key vulnerabilities, 
addressing----
    Ms. Jackson Lee. So the $20 million would undermine the 
progress. Would you commit to me as well of engaging with 
industry to make sure the surface inspectors are trained to the 
industry, or to the rail system that they are looking at?
    Mr. Pistole. Yes.
    Ms. Jackson Lee. Let us go to the Known Crewmember Pilot 
Program. We know that the Senate and other Members have joined 
in asking for flight attendants to be included in that. In 
light of the bipartisan, bicameral support for the inclusion of 
flight attendants in a Known Crewmember Program, will you 
commit today to use your executive authority to expand the 
program accordingly, review it, and see how that could be 
implemented?
    Mr. Pistole. I think, as you know, Madam, had been 
reviewing that. Obviously, we started Known Crewmember with the 
pilots. We are working through the issues with the flight 
attendants. There are a number of other aspects to that. But 
yes, I commit to doing that.
    Ms. Jackson Lee. As you well know, we have had a number of 
cabin security issues. I have asked the Chairman for a cabin 
security hearing. I look forward to working with him to 
securing that hearing.
    One incident in particular that obviously was unique, but 
involved an airline pilot in the mix. There were fortunately, 
among the other families, women. There were some ex-NYPD 
officers. But the restraints broke. They were so aged that they 
broke. My question to you is, in the substantial cut that we 
face in the appropriations bill dealing with FAMs, how would 
this substantial reduction in FAM stress the mission for in-
cabin security?
    Mr. Pistole. Well, obviously, reduction in FAM coverage is 
a potential. I say ``potential,'' because we don't know; but a 
potential reduction in aviation security.
    Ms. Jackson Lee. So $50 million that is now reduced out of 
FAM's budget, how would that impact----
    Mr. Pistole. That reduces aviation security.
    Ms. Jackson Lee. So what are you doing to assist with 
airlines? Obviously, you know, because TSA is the first line, 
about their in-cabin security, i.e., equipment, et cetera?
    Mr. Pistole. Sure. So of course, over the years we provided 
training obviously for pilots, the flight attendants, and the 
entire flight crew. Then the airlines have their--they have 
taken that in terms of additional training. They actually 
provide the restraints that you talk about. So we do not 
regulate the exact type of restraints that they would require 
to have on-board. But it is up to them to actually----
    Ms. Jackson Lee. Let me, as my time is ending, make sure 
that they are doing it. My last point just to make, you are 
looking at how you deal with the elderly and children. Is that 
not right? I think that is crucial that you deal with that 
issue.
    Mr. Pistole. Right. Absolutely; we have instituted new 
policies for children 12 and under last fall. We have 
instituted new policies for 75 and older last month; and so all 
those individuals would go through an extradited physical 
screening, less-intrusive screening, because they are in a 
lower-risk category.
    Ms. Jackson Lee. Let me thank the Chairman for--I hope to 
return.
    Mr. Rogers. Thank you. Chairman recognizes Mr. Turner of 
New York for any questions he may have.
    Mr. Turner. Thank you, Mr. Chairman.
    Good to see you again, Mr. Pistole. How are you? Some time 
ago we talked about training and behavioral analysis. How do 
you select these people? A good deal of judgment and tact is 
required, and an overriding common sense, which we all know is 
not that common.
    Are any of the collective-bargaining provisions impeding 
how these people are selected?
    Mr. Pistole. Thank you, Congressman. So let me answer the 
last question first. No, there has been nothing impeding that 
from a collective-bargaining perspective. We go through a 
selection process. Obviously, we look for volunteers of those 
who have the aptitude.
    Then we do a screening process of them to assess whether 
they would be a good candidate, based on some of those criteria 
you mentioned, including common sense, and the ability just to 
engage with somebody in conversation. We then put them through 
a training.
    For those that we have at Boston and Detroit who are 
engaged in what we call the ``Assessor Program,'' they then go 
through an additional training regimen, which is designed to be 
the most comprehensive that we have within TSA and the 
department, to say what are their abilities to discern what a 
person's intent is by, again, just a brief conversation.
    It may be as much as not what the actual answer, but how 
that person--their body language, their eye contact, some of 
those things that are known in law enforcement, of course, in 
terms of just being able to engage somebody so all those things 
are factors that we look at as we try to assess who our best 
people are to be those behavior detection and those assessor 
officers.
    Mr. Turner. How long does it take to, in your judgment, to 
train one of these people?
    Mr. Pistole. Well, so the assessors, which are--if you want 
to call them a super, you know, behavior detection officer in 
Boston and Detroit have been through not only--they are all 
behavior detection officers to start with--I believe everyone 
is.
    Then, they go through a 40-hour training course which is 
tested, graded, and most people make it through, some do not if 
you don't pass, if you will.
    This is based on some world-wide best practices, without 
identifying specific countries, but world-wide best practices 
on what is the best way to engage a passenger in a verbal and 
a, you know, a non-hands-on approach.
    So they go through this 40-hour training and, then, they 
have on-the-job training to assess, okay, you made it through 
the training all right, but are you actually doing this as we 
would like in real life? So we have it in the two airports now, 
in terms of the Assessor Program. We have not expanded that yet 
because of one the questions is: What is our return on 
investment? So we put people in this position, what type of 
detection are we getting and what is that return on investment?
    Mr. Turner. To date, have we found the speeds to process up 
of screening and moving that line along?
    Mr. Pistole. It does not speed the process, but we have 
been able to make some modifications. For example, is it the 
document checker, who first checks the travel documents and the 
passport, can that person do some of this or does it need to be 
a separate officer? So we have been able to make some 
refinements based on that.
    It takes, typically, from 20 to 30 seconds for this 
conversation to take place so it doesn't expedite the process, 
but it is another layer of security that helps us.
    And is particularly noteworthy in light of the intelligence 
from last year where terrorists were talking about surgically-
implanted devices so where they are talking about not just 
underwear bombs, as we have seen, but actually taking 
explosives and having the suicide bomber agree to have that 
device surgically implanted.
    A behavior detection officer and assessor may be the best 
layer of security we have to engage that person and see whether 
there may be something about that person before they ever make 
it on a plane. So those are some of the options we look at.
    Mr. Turner. All right. Thank you. I yield back.
    Mr. Rogers. I thank the gentleman.
    The Chairman now recognizes the Ranking Member of the full 
committee, Mr. Thompson, for any questions he may have.
    Mr. Thompson. Thank you very much, Mr. Chairman.
    I would like unanimous consent to enter into the record an 
exchange of letters between Mr. Pistole and myself.
    Mr. Rogers. Without objection, so ordered.
    [The information follows:]
  Letter From Ranking Member Bennie G. Thompson and Hon. Nita M. Lowey
                                      May 31, 2012.
The Honorable John S. Pistole,
Administrator, Transportation Security Administration, 601 S. 12th 
        Street, Arlington, VA 20528.
    Dear Administratoe Pistole: As you know, Transportation Security 
Officers (TSOs), the men and women on the front lines of our Nation's 
aviation security efforts, fought for nearly 10 years to secure 
collective bargaining rights. As the main Members of Congress who 
advocated for collective bargaining rights for TSOs, we heralded your 
February 2011 decision to confer TSOs those critical workplace rights. 
That decision cleared the way for an election that resulted in the 
American Federation of Government Employees (AFGE) being named the 
exclusive representative for TSOs nearly 1 year ago.
    For the past 3 months, the Transportation Security Administration 
has been engaged in negotiations with AFGE over a contract. This 
process is at a critical juncture. Unless you resolve outstanding 
issues and reach agreement on a final contract within the next 30 days 
of face-to-face negotiations, outstanding issues will be put before a 
unitary dispute resolution system that would further delay 
implementation of critical workplace rights for TSOs. Now is the time 
for you to show leadership and personally commit yourself to securing a 
timely and fair agreement and implementing a third-party grievance 
review process for TSOs. By doing so, you will deliver on the 
expectations of the hard-working and committed men and women who put 
their trust in you when they participated in the elections nearly a 
year ago.
    Thank you for your prompt attention to this matter. Should you want 
to discuss this matter with us or have any further questions on this 
matter, please contact me or Mr. I. Lanier Avant, Staff Director, 
Committee on Homeland Security, or Dana Miller, Legislative Assistant 
and Counsel for Congresswoman Lowey.
            Sincerely,
                                        Bennie G. Thompson,
                    Ranking Member, Committee on Homeland Security.
                                             Nita M. Lowey,
           Member, Subcommittee on Homeland Security, Committee on 
                                                    Appropriations.
                                 ______
                                 
                      Letter From John S. Pistole
                                      June 6, 2012.
The Honorable Bennie G. Thompson,
Ranking Member, Committee on Homeland Security, U.S. House of 
        Representatives, Washington, DC 20515.
    Dear Congressman Thompson: Thank you for your letter of May 31, 
2012, co-signed by Congresswoman Lowey. I appreciate your continuing 
interest in the status of collective bargaining negotiations with the 
American Federation of Government Employees (AFGE), and your support as 
we move forward with this effort.
    On June 1, 2012, TSA and AFGE received a decision from the Panel of 
Neutrals regarding whether the contract ratification and referendum 
process should be included in collective bargaining negotiation ground 
rules. AFGE initiated this proceeding, arguing that negotiated ground 
rules should include this referendum process. The ruling held that, 
because my Determination of February 4, 2011, did not expressly exclude 
the contract ratification and referendum process from negotiation 
ground rules, it was appropriate to include that item as part of the 
ground rules. In their argument before the Panel, AFGE asserted that 
ground rules include any collective bargaining process from beginning 
to end, and are not restricted to just the period of negotiation over 
contract provisions. This traditional view expands the ground rules 
beyond what I had envisioned when issuing the Determination, and the 
ruling has broader impact beyond negotiations on the 11 specific topics 
subject to collective bargaining.
    The Panel remanded the ratification and referendum proposal back to 
the two parties for negotiation and inclusion in ground rules. As a 
result of the Panel's decision, we are working to complete the ground 
rules negotiations consistent with the Panel's ruling. We are 
simultaneously negotiating on the actual contract provisions. 
Discussions with AFGE National leadership continue on other topics 
outside the scope of the Determination, including a third-party review 
process for certain matters.
    In previous conversations, I've shared with you my belief that the 
long-term effectiveness of our counterterrorism and security 
responsibilities is inextricably linked to a motivated and engaged 
front-line workforce. I remain steadfast in my opinion that a union, 
operating within the framework of my Determination, can play a 
constructive role to heighten the level of employee engagement and 
improve mission performance. My aim remains to conclude an agreement 
with AFGE as soon as practical that represents the collective interests 
of our dedicated and hard-working TSO workforce.
    I look forward to your continued interest and support of TSA and 
the changes we are making to become a high-performing counterterrorism 
organization. An identical response has been sent to the co-signee of 
your letter, Congresswoman Lowey. If you require any additional 
information on this matter, please do not hesitate to contact me 
directly or Ms. Sarah Dietch, Assistant Administrator for Legislative 
Affairs[.]
            Sincerely yours,
                                           John S. Pistole,
                                                     Administrator.

    Mr. Thompson. As well as unanimous consent to enter into 
the record the arbitration results relative to negotiations 
between TSA and AFGE.
    Mr. Rogers. Without objection, so ordered.*
---------------------------------------------------------------------------
    * The document has been retained in committee files.
---------------------------------------------------------------------------
    Mr. Thompson. Relative to that collective bargaining effort 
and the fact TSOs have selected a bargaining representative.
    Mr. Pistole, can you provide the subcommittee your 
assurance that TSA will negotiate with AFGE in accordance with 
the determination and that you are committed to reaching a 
resolution on a contract through the regular negotiating 
process?
    Mr. Pistole. Absolutely, Congressman Thompson. I am 
personally and we have committed to that and we are working 
diligently to reach that agreement.
    Mr. Thompson. Thank you. Taking off from Mr. Turner's 
comments about behavior detection officers, you know, GAO 
looked at that spot program and we spend about a billion 
dollars of taxpayer's money putting this program together.
    If we look at who we have detained, have you made an 
assessment of whether or not the original intent of the program 
is being met by the people we are detaining?
    Mr. Pistole. Yes, the short answer is yes, it adds value as 
another layer of security at U.S. airports. The question is, 
again, that return on investment. Is it something that we 
should expand beyond--for example, the assessor program, beyond 
the two airports we are in as the most robust layer of security 
and I am still assessing the information from there?
    So we have identified a number of people who exhibited 
behavior anomalies, if you will, suspicious behavior things and 
they have been people who, for example, had false documents on 
them, were illegal aliens, perhaps had outstanding criminal 
warrants for them.
    So we have identified people and law enforcement has been 
able to step in and arrest, detain those people. One of the 
questions we get, well we haven't identified any terrorists, 
and I think that is because of the deterrent nature of the U.S. 
Aviation Security system, the protocols we have in place.
    Every threat we have seen since 9/11, to aviation, has been 
from overseas whether it is Richard Reed, the shoe-bomber, 
whether it is a liquids plot in 2006 from London, whether it is 
the----
    Mr. Thompson. So your testimony is that the billion-dollar 
investment, even though we have not caught a terrorist, we have 
caught people with visa overstays or what have you is worth the 
investment?
    Mr. Pistole. I believe it is, yes.
    Mr. Thompson. Was that the intent of the program?
    Mr. Pistole. The intent is to deter terrorists and if it 
doesn't deter, then to catch them because we haven't had any 
actual terrorist try to get on a flight here in the United 
States, even though some people talk about well, what about 
Faisal Shahzad, the Times Square bomber. He was a fleeing 
felon, if you will, as opposed to a terrorist trying to do 
something to the flight.
    Mr. Thompson. I expect you to defend your program. Now, GAO 
also has said, well, maybe we ought to have a fresh set of eyes 
look at it. Have you thought about having a third-party entity 
look at it as GAO suggested?
    Mr. Pistole. Yes. I mean I think there is strong validation 
world-wide from some of the premiere security services in the 
world that do this type of work. But as to actually having any 
outside entity come in to do an independent validation, I have 
not taken that step, if that is what you are suggesting.
    Mr. Thompson. GAO suggested it. Say, you know, in TSA's 
mind, it is a successful program, but outside of TSA, you have 
had no outside validation.
    Mr. Pistole. Well, yes we have. I thought you meant a new 
study. So we have, for example, the S&T, Science and 
Technology, part of the department.
    Mr. Thompson. No, no----
    Mr. Pistole. You mean outside the department?
    Mr. Thompson. Outside the department.
    Mr. Pistole. Yes, we have not paid for an independent 
third-party review to come in and assess the program.
    Mr. Thompson. Last point is the TWIC card is a real issue. 
We have about 2.1 million people in this country with a card, 
over time will expire. Do you commit yourself to addressing 
that expiration before those times come?
    Mr. Pistole. Yes.
    Mr. Thompson. Thank you.
    Mr. Rogers. Thank you, gentlemen.
    The Chairman recognizes Mr. Richmond for any questions he 
may have.
    Mr. Richmond. Thank you, Mr. Chairman, and to the Ranking 
Member, I will go straight to Congressman Thompson's last 
question because I think he was kind of rushed and wanted to 
get the commitment.
    I represent New Orleans, Louisiana and the Port of South, 
Louisiana, Port of New Orleans, five or six major rail lines 
and TWIC issue is very important for us.
    When you look at the loss of time of people going to renew 
the card and having to go twice and I think the major issue is 
the need for renewal and the need to go twice in order to get 
the card.
    Is there a plan in place to address both of those issues, 
especially since we don't have the readers?
    Mr. Pistole. Yes, Congressman, thank you. In recognizing 
the importance, especially to your district, yes, there has 
been a lot of very good work done.
    We are very near to announcing what that plan which 
addresses those issues in a way that still provides adequate 
security in force to have validated cards, but also addresses 
issue that you have raised in a way that balances the 
individual needs with the security needs.
    Mr. Richmond. Getting back to, I guess, the subject of this 
committee and I agree with the Ranking Member of the 
subcommittee that I think the title is unfair to you.
    In your experience and any data surveys that you have seen, 
is your approval rating or customer satisfaction reputation 
that much different from any normal police department, meter 
maid, or anyone else who has to enforce laws that are 
uncomfortable or inconvenient?
    Mr. Pistole. Well, I think, in large part, we are defined 
by anecdotes. So of the 1.7, 1.8 million who travel every day, 
I am not aware of a complaint yesterday or perhaps the day 
before so think it is just part of the sheer numbers that we 
deal with.
    With over 630 million people in a year, we are not going to 
have 100 percent customer satisfaction where every single 
person believes they received the best possible security 
screening. So I think that is just a factor of the numbers.
    That being said, it is our goal to provide most effective 
security in the most professional way to make sure everybody 
gets safely from point A to point B, but it is done in a way 
that it recognizes the privacy and civil liberties of every 
traveling person.
    It is something that, by definition, our job can be 
confrontational and so people may not agree with that. What we 
are working on, the training programs, the technology 
improvements to try to become less invasive and yet more 
thorough; all these things are designed with that outcome.
    Not that it is a popularity contest, obviously, but it is 
something that we want to make sure we can assure the traveling 
public and, obviously, committees of oversight to say, yes, we 
are providing the most effective security in the most efficient 
way.
    It doesn't happen overnight, change doesn't happen 
overnight, but we have instituted changes that I believe are 
addressing the committee's concerns and the traveling public's 
concerns in a way that affects the vast, vast majority, again, 
recognizing that there will be individuals who are not fully 
satisfied.
    Mr. Richmond. Then as you move to being smarter--and one of 
my concerns and I probably different from many of the Members 
on the committee, but as you reduce the level of screening for 
seniors and infants, do you worry about creating an opportunity 
for them to be used as mules and voluntarily or involuntarily 
and is that a concern?
    Mr. Pistole. That is a concern, Congressman. We have seen 
incidents around the world where people have been used 
unwittingly, as you said, particularly, well several incidents 
where that has happened so we have to be mindful of that and 
that is why when we describe TSA as being one of the multiple 
layers of security for the U.S. Government, the key enabled for 
all of this is intelligence on the front end.
    So this most recent plot involving the underwear device 
part two, that intelligence crew I talked about, the Yemen 
cargo plot that was disrupted, that was all based on 
intelligence. So it is not like we are operating in a vacuum 
over here. So if somebody is going to use a child or an elderly 
person, we are working in close concert with the rest of the 
U.S. intelligence and law enforcement communities to make sure 
that we have information about that.
    We will always keep random and unpredictable screening as 
part of it and everybody is still going through some physical 
screening, it is just a question of: Can we do it more smartly?
    Mr. Richmond. Very quickly, I only have about 20 seconds 
left.
    Customer satisfaction, do you have any idea where you are 
in terms of your approval rating or customer-satisfaction 
rating?
    Mr. Pistole. Well, well again so----
    Mr. Richmond. If you have a number, it would be great.
    Mr. Pistole. So I know in terms of the calls to our TSA 
contact center, let us say a half million, 525,000 calls thus 
far this year--over half of those are just for information; 7 
percent of the calls that we receive at this contact center are 
complaints. So most are just asking for information about 
screening protocols and things like that, 7 percent are 
complaints. I think last year, it was 6 or it was 6 percent 
now, 7 percent last year I have had to give to give the exact 
data.
    Mr. Richmond. My time is up but I would say it is far 
better than the 13 percent approval rating for Congress.
    Mr. Pistole. Thank you, sir.
    Mr. Rogers. I wouldn't bet on it.
    One of the things you could do, I mean he asked a very 
legitimate question. I think it would be good for y'all to do--
there are all kinds of survey companies that will do surveys 
for you on customer satisfaction. I think it would be good for 
y'all to hire one to go out and ask the traveling public what 
they think of TSA, what they would suggest.
    But I want to go back to what I am suggesting and that is 
y'all get leaner.
    You said that you thought 30 to 40 percent reduction in 
personnel was too much. What is a good number? Keep it in mind, 
you don't need 46,000, nobody in this room believes that with a 
straight face that you have got the right number of people.
    What is the size that you can cut? Is it 25 percent?
    Mr. Pistole. The challenge is to say what type of security 
is the American people--what are they expecting? So----
    Mr. Rogers. No, I am asking you, you have been in the job 2 
years and you are a very smart competent fellow, I know that 
and I hand it to you.
    You have had 2 years to run the department. if you could 
pick the work force, what is the number you could get by with? 
If it is not 46,000, is it 35,000 workers if they were 
professionally trained?
    Mr. Pistole. So the current construct in order to be the 
most efficient agency possible, which most people don't think 
about some of the details, 14,000 of our officers are part-
time. So just as there is a morning rush hour on the highways 
and the streets, there is a morning rush hour at most airports 
anyway.
    So as opposed to having full-time people there all day, we 
have part-time people who come in for 4 hours in the morning, 
some workers split shifts, 4 hours in the afternoon----
    Mr. Rogers. Isn't that 14,000 in part-time workers over the 
46,000 full-time?
    Mr. Pistole. The requirement is that those who are hired 
with the cap is 46,000, so the FTE, when we get into the 
details, it is still below that.
    That is one way we have tried to deal with that cap is to 
say, Congress has not approved full-time funding for all these 
people so we have full-time and then we have all these part-
time people and part of the challenge is how do you train and 
retain a professional workforce? So the attrition rate that I 
mentioned, the 7.2 percent--is it higher for the part-time 
people because they are looking for other opportunities? So 
that is part of the challenge.
    So if you are telling me you would fund us at ``X'' amount, 
the appropriations would give us ``X'' amount, then I would 
have to look at, so do I cut back the part-time, which would be 
less efficient because then we need full-time people who are 
not busy during the----
    Mr. Rogers. I want you to put out those people that are 
standing around not doing anything at the airport screening 
checkpoints.
    Mr. Pistole. So just on that comment, sir--some of our 
airports don't have break rooms where people who are close by 
the checkpoint and so they may have to simply go to a, you 
know, a coffee shop or something on their break because they 
may have to walk 10 to 15 minutes to get to a break room. Well, 
if they have a 20 break, it is difficult to do----
    Mr. Rogers. I am not talking about folks on their break, 
Mr. Pistole. You know I am in airports all the time and I 
actually am one of the people in Congress who understand the 
TSA and I know who is working----
    Mr. Pistole. No you don't.
    Mr. Rogers [continuing]. And who is not. You and I both 
know, you can go to any major airport and you see a lot more 
people than necessary at these checkpoints.
    So I am going to get back to my question.
    Mr. Pistole. Yes.
    Mr. Rogers. If it is not 25 percent, is it 20 percent that 
you could reduce the workforce?
    Mr. Pistole. Sir, I am not prepared to say a percentage 
that I am willing to reduce because I believe the personnel we 
have currently, again, using that part-time construct are 
necessary to provide the security the American people expect 
today.
    Mr. Rogers. Well, it is not hurting your confidence level. 
You and I both know, everybody in this room knows, you can get 
by with less folks. I tell you with the budget problems we are 
having around here, you know your number is not going to be 
getting bigger. So if you are going to find money for the 
technologies that you are looking at right now, you are going 
to have to find it somewhere.
    If you want to find the money to train these people to make 
them more professional, you are going to have to look for some 
place in your hide to come up with the money and I think you 
are going to have to look at right-sizing the department to get 
it down and then using that money to make them more 
professional.
    You talked a few minutes ago about the professionalism 
necessary for this job, do you feel like that the 46,000 
screeners are exhibiting the professionalism or the degree of 
professionalism that you expect?
    Mr. Pistole. Most do, but there are some clearly who don't. 
So if they violate our policies or procedures or if their off-
duty conduct is such that they do not uphold those expectations 
then we take appropriate action.
    Mr. Rogers. I know that you started and I applaud you for 
starting a uniform training system so every screener will 
hopefully one day go through the exact same screening so there 
is more uniformity across airports.
    My question is: At the rate that you are putting through 
that training program now, how many years will it take for the 
entire workforce to go through it?
    Mr. Pistole. Well right now, we don't have appropriated 
funds to do that and so we are taking it out of hide because it 
is a priority. So it is a long-term construct----
    Mr. Rogers. By long-term, do you mean 1 year?
    Mr. Pistole. Oh no, multiple years, out years we are 
talking about.
    Mr. Rogers. Decades?
    Mr. Pistole. Not decades but multiple years.
    Mr. Rogers. Okay. Tell me more about that attrition rate?
    Mr. Pistole. Seven-point-one or 7.2 in fiscal year 2011 
and----
    Mr. Rogers. Well, let me ask you this. I looked at what 
happened in Ft. Meyers, you know, y'all had a little problem 
out there, what does it take to get fired at TSA? Apparently a 
lot more than these folks, they only let four of them go and 
the other 35 or so were given suspension for not doing their 
job.
    Mr. Pistole. Well, obviously, the facts of each individual, 
we want to make sure that we investigate properly. We afford 
appropriate due process. If there is immediate issue with 
security then we suspend them right away so they are not on the 
job affecting security.
    These individuals that were found to be most egregious, we 
have proposed for dismissal, the other 37, we have proposed for 
suspensions based on their activity and their culpability, 
including the Federal security director, his deputy, and then 
the manager who had the oversight. So it was a situation of did 
they know or should have known----
    Mr. Rogers. Yes.
    Mr. Pistole [continuing]. What was going on?
    Mr. Rogers. Well I appreciate it. My time has expired.
    The Chairman recognizes the Ranking Member of the full 
committee, Mr. Thompson, for any more questions he may have.
    Mr. Thompson. Thank you very much.
    Mr. Pistole, one of the issues that some of us have tried 
to move with this committee is respect to new technology. The 
culture of a lot of organizations is to only deal with certain 
vendors because they had the capacity to deliver.
    But one of the things that a lot of members are exposed to 
is new detection technology. But we always hear that the 
barrier between developing the technology and what is required 
to get TSA's nod is so difficult to overcome.
    What can you say to this committee that will allow new 
technologies a faster way of becoming vetted?
    Mr. Pistole. Yes, thank you Ranking Member.
    On Monday of this week, I met with a group of industry 
personnel, CEOs, COOs from a number of companies including some 
small business, minority-owned businesses. One of the thing I 
told them is we are always looking for innovation. So the 
spiral development is good but we are also looking for 
breakthrough technology which may come from anybody. So the 
big-ticket items, if you will, I would agree, it is difficult 
for the small-business owner--the several-person organization 
to try to, for example, to develop a $100,000 piece of 
equipment just on the R&D and everything.
    So what we do is try to--looking for opportunities--and I 
think if you look across the department and even across the 
Government, we have one of the best records, even though it is 
challenging, with small-business owners, minority owners to 
engage them in ways that may be outside the normal protocols.
    So if there is anything specific, I will be glad to follow 
up with----
    Mr. Thompson. Well----
    Mr. Pistole [continuing]. It off-line and----
    Mr. Thompson [continuing]. You know, you know, I have got 
about 4 minutes, I would just like to, as a follow-up to this 
meeting, engage you with some of the people that have contacted 
the committee about their difficulty and I would like for you 
to listen to them because what you say to us and what they say 
to us also, is not the same thing.
    Mr. Pistole. Be glad to do that, sir.
    Obviously, we are always looking for innovation. If we went 
through the number of unsolicited proposals some of them----
    Mr. Thompson. Well the reason I say that is, some of the 
companies have capacity. Some of the companies have even been 
able to deploy their technology overseas to airports that we 
have relationships with but they can't get that technology 
through TSA's vetting.
    If there is a disconnect, I want you to help us identify it 
and, you know, these are American companies, American jobs that 
we could do.
    Apart from that I have one other issue I want to--the 
reorganization. We have been hearing about it for a little 
while now. Can you provide us with a preliminary report on the 
efficiencies you expect to gain from this reorganization?
    We have been exposed to reorganizations in the past, but we 
have not been able to determine efficiencies. What we have been 
able--just to be honest with you--is you move people around, 
you get some people promoted, some people moved down. What is 
your purpose in the reorganization?
    Mr. Pistole. The bottom line is to come up with the most 
efficient way of providing the security service that we 
provide. So, to that end last year I caused an efficiency 
review to be taken, particularly for the headquarters 
components. There is information out there, some reported by 
other committees, that there are 4,000 people at TSA 
headquarters.
    We have 2,500, approximately, people at our headquarters. 
Now, we have other components that do National functions and 
vetting, for example, Annapolis Junction, our operation center 
out by Dulles Airport. So they may be counting those numbers--
but anyway, the members at headquarters, what this review was 
to look at--the layers of review, for example, on documents, 
policy issues. So we have eliminated a number of positions at 
headquarters to become more efficient, leaner, smarter--to the 
Chairman's point.
    I would have to get back with you in terms of the exact 
numbers and those issues, but to say it is a number of 
positions that have been eliminated to reduce layers of 
bureaucracy and to become a smarter, leaner organization.
    Mr. Thompson. But can you provide us with an interim report 
on where you are with that?
    Mr. Pistole. Yes.
    Mr. Thompson. And what savings are projected----
    Mr. Pistole. Yes.
    Mr. Thompson [continuing]. In that respect?
    Mr. Pistole. Be glad to do that.
    Mr. Thompson. Thank you.
    I yield back, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    The Chairman recognizes the gentleman from New York, Mr. 
Turner, for any additional questions he may have.
    Mr. Turner. Thank you, Mr. Chairman.
    I travel a good deal. I am in an airport about 12 times a 
month, I guess. I observe the lines. I think how fast we get in 
and out of there has a great deal to do with your image and 
customer satisfaction, and even how much air travel. I know 
people who prefer to drive now to the Carolinas rather than to 
endure what they have to do at an airport.
    Just one of the things that I have noticed is the belts-on 
or belts-off policy. Sometimes males are required to take their 
belts off. It slows things down. Other times they don't. I 
don't know if there is a uniform policy or just to keep 
everyone off guard. But that is a slowing process.
    Sometimes there is enough people there to help move the 
trays in high-peak times. I see inspectors who were looking at 
the electronic monitors were on-the-job training. Very often 
they stopped at every other bag and have to call for 
assistance.
    I would think that these would be better suited for low-
traffic periods. I don't see a process to--when things are 
getting out of hand there are a thousand people standing on the 
line for blocks, a way to quickly alleviate that?
    Mr. Pistole. Thank you, Congressman.
    That is one of the challenges that we have, and part of the 
reason--to the Chairman's question about the staffing--if we 
reduce the staffing by ``X'' percent that would likely have an 
impact on those wait times. Unless there is such an efficiency 
because of things--is it the same level of security? That is 
the bottom line.
    So what I would like to do is provide the committee with 
some of the metrics we use on assessing those very things. We 
actually look at this issue, assess, and look for ways to 
improve that in terms of the staffing model for each airport 
based on the checkpoint configuration, how long the wait times 
are.
    I get a report that shows wait times around the country, 
all 450 airports. Obviously it is the CAT X's that we most 
focus on--the largest airports--to say when there is a longer 
wait time than what we believe is appropriate.
    I spoke yesterday with the CEO. We had five airline CEOs in 
yesterday for an update in classified intelligence briefing. I 
spoke with two of them about issues; one in particular at a 
major airport, where their customers are experiencing longer 
wait times than they are used to. So, he wanted to know how we 
can work on that together in terms of their additional 
staffing, our additional staffing, to alleviate that issue.
    So it is something we are very focused on. You raise some 
good points about the belts-on, belts-off. There is some random 
and predictable--usually the idea and the whole idea behind the 
Trusted Traveler PreCheck Program is let us leave the shoes on, 
leave the belts on, leave the light jacket on to expedite those 
that we have done more prescreening of.
    So that is the whole construct, the whole idea behind the 
PreCheck program. As we get more and more people into that it 
will address those issues. It will help alleviate the wait 
times at the regular checkpoints, because we can streamline 
those others.
    So again, it doesn't happen overnight, to the Chairman's 
point. I wish I could say yes, it is all going to be done 
tomorrow. But we are moving very deliberately and as fast as we 
can while maintaining the best possible security to achieve 
those goals that you outline.
    Mr. Turner. Thank you, Mr. Pistole.
    Mr. Rogers. I thank the gentleman.
    The Chairman recognizes the gentleman from Louisiana, Mr. 
Richmond, for any additional questions he may have.
    Mr. Richmond. Thank you, Mr. Chairman.
    I will try to pick up a little bit where Mr. Turner left 
off. That is, besides for PreCheck, which has expedited 
significantly for people who have signed up, and people who 
travel all the time, but what should we expect or look for, for 
the regular traveler who has not signed up? I thought that 
shoes on would be something that would have been achieved by 
now.
    What can we look for in the near future for the general 
traveling public to help them expedite them through the 
process?
    Mr. Pistole. Thank you, Congressman.
    We are working both internally and we have received some 
proposals from the private sector on that very question, how do 
we expand that known population using commonly available data 
that, if again, if people are willing to share that, how can a 
private company take that data, assimilate, assess it based on 
our criteria of risk, and then provide that information to us 
outside of the elite frequent fliers or even global entry 
program?
    So we had a meeting on that yesterday. I think there is 
some very good opportunities. Again, and it is not an overnight 
fix, but I think it will give us the opportunity to greatly 
expand the base now, as well as, for example, the members of 
the military that I mentioned, as we expand beyond Reagan 
Airport, in Seattle, where they are now, as more and more 
people in the intelligence community come on.
    So again, the whole idea is to build that known population 
as broadly as, and as quickly as we can, while maintaining the 
best possible security. So for the everyday common traveler, or 
the everyday traveler, somebody from New Orleans, Baton Rouge, 
says, ``Okay, I travel a couple times a year.'' They could sign 
up for global entry, which would give them that expedited 
access at the 15 airports, now 35 by the end of the year.
    But we are exploring ways that through a private-public 
partnership we could do that. So we don't actually get the 
data. I don't want people's personal identifiable information. 
But if a private company does that in partnership with the 
individuals, and then they can provide that information to us, 
then we can make a risk-based judgment based on the pre-screen 
so we can expedite them at the checkpoint.
    Mr. Richmond. To the Chairman's point, and I think he is 
far more aggressive than I am, but I would indicate support 
that I do think that any entity can run a little leaner and 
smarter to reduce costs. At some point you get to the point 
where you can't do more with less. I don't think we are at that 
point with TSA. So to the extent that we can operate leaner, 
more efficiently, I think that should be the goal.
    My question to you would be is there anything that you have 
that we can help you with to make it easier for you to operate 
more efficiently or leaner?
    Mr. Pistole. Well, I appreciate that, Congressman. I think 
simply the public recognition, and as Members of the committee 
do, that the broader we can expand this known population, the 
more quickly we can do that, the more efficiently we can 
operate.
    So getting to the Chairman's questions, as we expand that 
population I do see some savings in the future. I just don't 
know what those are, and so the support of the committee is 
critically important in terms of moving forward with the whole 
risk-based security initiative.
    Mr. Richmond. Thank you, Mr. Chairman. I yield back.
    Mr. Rogers. I thank the gentleman.
    The Chairman now recognizes my friend and colleague from 
Illinois, Mr. Walsh, for any questions he may have.
    Mr. Walsh. Thank you, Mr. Chairman.
    Thank you, Mr. Pistole. I apologize for being tardy.
    Let me start out with a broad general question. If TSA does 
suffer from sort of a bad public relations reputation these 
days, and much of that is endemic to what they do, if you were 
to be critical though, what constructive criticism would you 
lay at the feet of TSA itself, and/or the folks that work with 
TSA in contributing to that poor public perception?
    Mr. Pistole. Yes, we talked a little bit about that. I 
think it is the anecdotes that drive a lot of that negative 
impression, and rightfully so. So is we have treated somebody 
unprofessionally, then shame on us, because we have not done 
the job that we are expected to do.
    So that is clearly on us, and that is why we are doing all 
this new training, re-training, professionalizing of the 
workforce, those things that will enable us to move to the next 
level.
    So I think the criticism is accurate. I think it is, again, 
driven by anecdotes, so we don't hear from the 99.9 percent of 
people traveling every day who had a positive experience, or at 
least a neutral experience, which is the vast majority. So we 
do hear these other ones, you know, that--and just one example. 
So a few weeks ago or last month there was some issue about 
Secretary Kissinger, you know, received a negative screening 
experience. Well he hadn't complained about it but it was some 
person who saw him and reported it. Well, so he put out a press 
release saying, ``Look, the men and women of TSA were very 
professional. I go through this because of my health condition 
and they treated me with respect and courtesy.'' He sent me a 
personal letter with that same information.
    So it was picked and criticized--I think it is just the 
environment that we are in.
    Mr. Walsh. Do you measure that all? Measure----
    Mr. Pistole. So we measure complaints. So as mentioned a 
little while ago, thus far this year out of the--I think it is 
525,000 calls through our call center--and that is not 
dispositive of every complaint. Some people are so frustrated 
they don't want to call, they don't know who to call. Sometimes 
we get complaints from some of the privatized airports like San 
Francisco, they will call us to complain about what the company 
that does privatized air, so we have to refer them to them.
    So out of those half million, it is either 6 percent or 7 
percent of those who are actual complaints, advice, asking for 
information or clarification of things. Then last year, fiscal 
year 2011, was again the three-quarter million calls and it was 
either 6 or 7 percent. I am just not sure which number was 
which.
    Mr. Walsh. A couple of specifics, does TSA have any plans 
to allow passengers in the future to carry things to protect 
themselves like pocketknives or anything of such?
    Mr. Pistole. To the Chairman's point earlier, we have 
looked at the prohibited item list and I think there are some 
opportunities for us--there is strong concern from some that if 
we allow knives on airports or airplanes for example, that--we 
know how the box cutters were used on 9/11 to, you know, to 
kill flight attendants and perhaps a passenger as a way of 
intimidating people to get into the cockpit.
    So there is some strong views on both sides. But yes, we 
have looked at that. We have made some minor modifications 
along the way. I don't know what all has been announced but 
there have been some minor modifications.
    What we are looking for is to have our folks focus on what 
can cause catastrophic failure to the aircraft and that is--the 
greatest threat now is the nonmetallic improvised explosive 
device. So that is what I want our folks focusing on. The fact 
that they find all these other things, okay, that is good but 
that is not going to bring down an aircraft, so that is where 
we are evolving to.
    In the future here, we will have some updates in that 
regard.
    Mr. Walsh. Great, thank you.
    Thank you, Mr. Chairman, thank you.
    Mr. Rogers. I thank you.
    You know, following up on that, you are right. We need to 
be focused on the real risk threat which is explosives and not 
on a pair of scissors, grooming scissors or fingernail clippers 
and stuff. So I do hope that you will visit that with a broad 
perspective.
    I want to go back to one of the other questions that was 
asked about Henry Kissinger.
    You know, he is one of the most recognized people on the 
planet. Donald Rumsfeld, we had an issue a couple of years ago 
where he was going through and was patted down.
    I think the thing that aggravates the public about that is, 
if we are truly moving to a threat- or risk-based perspective 
of how we do this job, why are we patting down Donald Rumsfeld? 
I mean a supervisor ought to at least have the discretion to 
say, I don't think we have got to worry about him.
    So, do you see my point? I think that is why it winds up on 
TV because it is just an illustration that there is not the 
degree of professionalism that we want. You know, I am 
concerned about the fact that apparently supervisors don't have 
more discretion.
    I would like to see the department get much more aggressive 
about finding the money out of hide, my preference is by 
downsizing, to put more supervisors through uniform training so 
they have got a lot more professionalism and more discretion 
frankly.
    Mr. Pistole. Yes, thank you Chairman.
    I agree completely with you on that. We need to empower our 
front-line people, particularly supervisors, and that is why we 
started with our first classes at the Federal Law Enforcement 
Training Center for supervisors knowing that they are critical 
to drive the change that--that we are trying to make at TSA to 
empower them.
    Currently the Federal security directors do have that 
discretion, but they are obviously not at each checkpoint 24 
hours a day. So what we are trying to do is push that 
discretion down with the right people to make sure that there 
is good judgment, there is good common sense being used in 
those situations.
    So I agree with you on that.
    Mr. Rogers. Tell me what kind of time line you see being 
realistic.
    Mr. Pistole. For the?
    Mr. Rogers. Training of the supervisors.
    Mr. Pistole. Well, again, we are doing this all out of 
hide, so I would have to say I can't do anything or I can't do 
this, so I am going to do that. So right now, we have trained 
50 supervisors and we have classes, I think we have eight or 
nine more classes scheduled for the rest of this year, so that 
would cover several hundred more----
    Mr. Rogers. Out of how many?
    Mr. Pistole. I want to say 3,000-some. I don't know the 
exact number. So again, without specific funding--so talking 
about funding----
    Mr. Rogers. Right.
    Mr. Pistole [continuing]. If there was funding for this and 
Congress and the American people said we need to train TSA 
supervisors and others more, then I obviously, I could expedite 
it very quickly.
    Mr. Rogers. Right.
    I do want to go back to the issue a little while ago about 
termination. Sheila Jackson Lee, in her opening statement, 
talked about the fact when we do run across people that aren't 
doing their job, we need to run them off. I completely agree 
with her on that not just because it gets bad apples out of the 
system who need to find something else to do, but it sends a 
message to the other workers that we take this stuff serious 
and we expect them to do their jobs or go somewhere else to go 
to work.
    So I do hope that y'all will be more aggressive in that 
area. I know when the GAO reports where we found they audited 
the screening system and they found failures. More often than 
not, the failures were attributed to human error; some because 
they weren't trained well enough, some just because they were 
sorry.
    Those folks need to be fired, because very seldom have I 
found any instance where when they had that failure, they were 
fired. Instead they were removed from that position and then 
given more training and then sent back. You just need to fire 
some of those folks and it would get everybody else's attention 
I think.
    Mr. Pistole. I agree with you, Mr. Chairman, in terms of 
the accountability. I think if you look at what we have done, 
particularly in the last year since we stood up the Office of 
Professional Responsibility with security officers, for example 
in Honolulu or in Charlotte or most recently in Ft. Myers that 
when we find people not doing the job, we will give them due 
process but we will hold them accountable and we will fire them 
and that is----
    Mr. Rogers. Well I hope so because the American public, you 
know, is paying for that and they are standing in the lines and 
they are seeing this and I really think it would help that 
image problem----
    Mr. Pistole. I agree.
    Mr. Rogers [continuing]. That the department has got.
    Mr. Pistole. I agree.
    Mr. Rogers. If you put a bump in their step.
    Were you going to ask something? I thought you asked for my 
attention.
    Mr. Richmond. No.
    Mr. Rogers. Oh, I am sorry, I am sorry.
    The, Mr. Thompson talked to you a few minutes ago about 
this access to you by business leaders. You know, one of the 
concerns I have had is procurement problems in the department 
and not just in your department, the entire Department of DHS.
    Tell me, why was the business roundtable used to decide who 
got to come and talk to you?
    Mr. Pistole. The----
    Mr. Rogers. This was at the recent TSA Systems Integration 
Facility.
    Mr. Pistole. Oh yes, the meeting on Monday.
    So the----
    Mr. Rogers. Yes, Mr. Thompson was talking about it----
    Mr. Pistole. Right, right, right.
    Mr. Rogers [continuing]. A little while ago.
    Mr. Pistole. So there were members of this roundtable who 
were organized because they have either existing contracts or 
they are looking for what the way forward is. But it wasn't 
limited to that, it was also open to I believe it was 25 or 50, 
I don't recall, other businesses who were allowed to 
participate so they didn't have to be--you didn't have to be a 
member of the roundtable to participate in that, if that is 
your question.
    Mr. Rogers. Yes, well I think what was frustrating to me 
about it was it was open only to a limited universe. You know, 
one of the things that we have been trying to urge the 
department to do is broaden the number of private-sector people 
you bring in for dialogue so they have a better feel for what 
your challenges are maybe then some ideas about how to meet 
those----
    Mr. Pistole. Right.
    Mr. Rogers [continuing]. Challenges.
    As I have talked with your personnel who deal with 
procurement, they have indicated they are going to try to 
broaden that net and this was just inconsistent with that and I 
didn't know if you were aware of----
    Mr. Pistole. Well, yes. So to that point, again, there were 
the core group but it was not limited to that group. Again, I 
have to get the numbers but I think there another 50 percent of 
that group that it was open to anybody who wished to come with 
space limitation. So I think they had to indicate an interest 
and then I don't know if everybody who was interested in 
coming, whether there were space limitations.
    But it was a full house and I spoke to the group and I took 
questions from anybody who had a question. So if there was a 
small business or there was somebody who wants to do business, 
it was completely open to anybody who wanted to ask a question.
    Mr. Rogers. Great.
    Mr. Richmond, do you have any more questions?
    Mr. Richmond. I was just going to join you in the question 
about the bad actors and inefficient people, incompetent people 
that they need to fire them which is the same message and the 
same thing we talked about when we found the private security 
company in Detroit who had the agent who found the bag outside 
and brought it into lost and found and our question at the same 
time was, No. 1: Why do we still have that private contractor?; 
and No. 2, the private contractor still has the employee.
    I think one thing that helps is when people know that you 
won't tolerate incompetence, laziness, or whatever the matter. 
It improves your image. But more importantly, it makes our 
citizens safer which is the goal. So I would join in that and 
even being in support of TSA and traveling a lot--and, you 
know, even as someone who probably wouldn't fit the mold of 
getting the light security check, I am neither young nor older 
and, you know, so I don't have a problem with TSA.
    I think that there is some areas you can improve. I don't 
think you need to be the greeter at Wal-Mart. But at the same 
time, I don't think you need to be the overbearing security 
guard who does not use common sense in how they deal with 
people.
    Mr. Chairman, I would just suggest that, you know, as 
distinguished and notable as Donald Rumsfeld and Henry 
Kissinger are, I would still bet that the odds of Brittany 
Spears are more easily recognized than them, so----
    Mr. Rogers. Let us hope so.
    Mr. Richmond. But, so we just have to make sure that common 
sense does play into the decision making.
    With that, Mr. Chairman, I yield back.
    Mr. Rogers. That is exactly my point; there are certain 
people that are just so well-known that you have got to use 
your common sense because if you start patting them down, 
people are going to say, they are patting down Beyonce. She is 
not going to blow the plane up.
    Say what?
    Mr. Richmond. [Off mike.]
    Mr. Rogers. Oh, off the record, yes, yes, I know where you 
are going.
    I want to offer a couple more examples of where I think you 
can get money out of hide.
    Now we had a hearing in here a couple of weeks ago on--the 
ground security--surface inspectors, just over 400 of them--and 
we had five different industry folks in here who were saying we 
have no idea what they are all doing. You know? There used to 
be 80-something of them and they all felt like they could still 
get by with that 80, we don't know why there is 400. That is an 
area I think that I would like to see you visit. That has been 
a very rapid ramp-up of personnel.
    Another is in the airports where we do have private 
contractors, we are very heavy on TSA personnel supervising 
those private contractors.
    For example, in San Francisco, we have 88 Federal employees 
under the FSD supervising the contractor there but they only 
have 44 managers that they are supervising. It is pretty hard 
to understand why you have got to have two people supervising 
one person.
    So I mean those are things that I think are just examples 
of how there is some potential to go in there and do some 
thinning which would help pay for this professional training 
that you and I both agree.
    I do hope that you will take from this hearing the 
overriding theme that I have had and that is I want to see 
y'all get leaner and smarter on a much more rapid pace.
    Mr. Pistole. Thank you, Mr. Chairman.
    If I may just comment on the San Francisco example, so 
that, I think 88 number--that I believe is less than 20 who are 
actually overseeing the private company. So that 88, if that is 
the right number, is actually the entire office that deals with 
all other issues not just--for example, to have forward-
deployed counsel from the Office of General Counsel, has a 
surface inspectors--things that are not related to that airport 
security.
    So that----
    Mr. Rogers. That makes sense. Even if it is 20----
    Mr. Pistole. Yes.
    Mr. Rogers [continuing]. For 40 people, I mean they 
literally could get by with two or three people who are 
supervising those 40 managers.
    Mr. Pistole. Well, I don't agree with that. I mean 
obviously if it has got to be a different contractor, we would 
just turn them loose and say, ``Okay. You have free reign.'' 
But yeah, there is a medium in there. I agree and I agree we 
can be more efficient.
    Mr. Rogers. Mr. Davis, do you have any questions?
    Mr. Davis. No I don't.
    Mr. Rogers. All right, well welcome.
    Thank you again, Mr. Pistole for being here.
    This hearing is now adjourned.
    [Whereupon, at 11:27 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
